                                                                             Report No. DODIG-2014-090



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              J U LY 2 , 2 0 1 4




                     Improvements Needed in the
                     General Fund Enterprise Business
                     System Budget-to-Report
                     Business Process




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste, & Abuse

                                     HOTLINE
                                     Department of Defense
                                     d o d i g. m i l / h o t l i n e




For more information about whistleblower protection, please see the inside back cover.
                               Results in Brief
                               Improvements Needed in the General Fund Enterprise
                               Business System Budget-to-Report Business Process



July 2, 2014                                     Finding (cont’d)

Objective                                        source of data for the FY 2013 AGF SBR because OASA(FM&C)
                                                 personnel decided to keep most prior-year funding in legacy
We performed this audit to determine whether     systems instead of converting the data into GFEBS.
the General Fund Enterprise Business System
(GFEBS) Program Management Office (PMO)          As a result, GFEBS B2R data is unreliable and the Army is at risk
implemented the DoD Business Enterprise          of not meeting the FY 2014 SBR audit readiness date. The GFEBS
Architecture Budget-to-Report (B2R) Business     fourth quarter FY 2013 trial balance contained $6.3 billion in
Process to properly support the Army             abnormal balances related to budgetary General Ledger Account
General Fund (AGF) Statement of Budgetary        Codes. In addition, Defense Finance and Accounting Service
Resources (SBR).                                 personnel could not use the GFEBS budgetary trial balance data
                                                 to prepare the FY 2013 AGF SBR, which reported $266.5 billion of

Finding                                          Total Budgetary Resources, without making $141.3 billion of
                                                 adjustments to the GFEBS trial balance.
GFEBS PMO and Army Budget Office (ABO)
personnel did not implement the B2R
business process to properly support the         Recommendations
AGF SBR. Specifically, GFEBS PMO personnel       Army officials should verify that the GFEBS posting logic
did not configure GFEBS to properly record       documentation is accurate and complete, and use it to validate
at least $6.3 billion in AGF B2R transactions.   GFEBS general ledger account postings; direct GFEBS PMO to
In addition, ABO personnel did not accurately    reconfigure GFEBS to properly record B2R transactions; provide
record $103.2 billion of AGF B2R transactions    ABO with training on performing their B2R responsibilities
in GFEBS and did not record 22 FY 2013           using GFEBS; create procedures that address the entire B2R
AGF appropriations, totaling $176.5 billion,     process; use GFEBS to execute all AGF appropriations; and assess
in a timely manner. This occurred because        how implementing corrective actions for the findings identified
Office of the Assistant Secretary of the Army    in this report will impact the timeline for asserting audit readiness
(Financial Management and Controller)            of the AGF SBR.
(OASA[FM&C]) personnel did not provide
adequate oversight to verify that the GFEBS
PMO configured the system to properly            Management Comments and
record B2R transactions; OASA(FM&C) and          Our Response
GFEBS PMO personnel did not create adequate
                                                 We request that the Assistant Secretary of the Army (Financial
procedures for some B2R business processes;
                                                 Management and Comptroller) provide additional comments on
and ABO personnel were not aware of their
                                                 Recommendations 1.d and 1.e. Please see the Recommendations
responsibilities after the implementation of
                                                 Table on the back of this page.
GFEBS. In addition, GFEBS was not the main


Visit us at www.dodig.mil


                                                                      DODIG-2014-090 (Project No. D2013-D000FL-0156.000) │ i
           Recommendations Table
                                                                         Recommendations       No Additional
                                        Management                       Requiring Comment   Comments Required
             Assistant Secretary of the Army (Financial Management and   1.d, 1.e            1.a, 1.b, 1.c, 2
             Controller)
             General Fund Enterprise Business System Program                                 2
             Management Office

             Please provide comments by August 4, 2014.




ii │ DODIG-2014-090 (Project No. D2013-D000FL-0156.000)
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500


                                                                                       July 2, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
		 CHIEF FINANCIAL OFFICER, DOD
	              DEPUTY CHIEF MANAGEMENT OFFICER
	              DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
	              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT:	 Improvements Needed in the General Fund Enterprise Business System 	
	         Budget-to-Report Business Process (Report No. DODIG-2014-090)

We are providing this report for your review and comment. Despite spending $910 million on
the General Fund Enterprise Business System development and implementation, the system’s
data for the Budget-to-Report business process was unreliable and required $141.3 billion of
adjustments to prepare the FY 2013 Army General Fund Statement of Budgetary Resources,
which reported $266.5 billion of Total Budgetary Resources. As a result, the Army is at risk of
not meeting the FY 2014 SBR audit readiness date.

We considered management comments on a draft of this report when preparing the final
report. DoD Directive 7650.3 requires that recommendations be resolved promptly. Comments
from the Deputy Assistant Secretary of the Army (Financial Operations) on Recommendations 1.a,
1.b, 1.c, and 2 addressed all specifics of the recommendations and conformed to the
requirements of DoD Directive 7650.3; therefore, we do not require additional comments. We
request that the Assistant Secretary of the Army (Financial Management and Comptroller)
provide additional comments on Recommendations 1.d and 1.e by August 4, 2014.

Please send a PDF file containing your comments to audfmr@dodig.mil. Copies of your comments
must have the actual signature of the authorizing official for your organization. We cannot accept
the /Signed/ symbol in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 601‑5945
(DSN 329-5945). If you desire, we will provide a formal briefing on the results.




	                                                Lorin T. Venable, CPA
	                                                Assistant Inspector General
	                                                Financial Management and Reporting




                                                                                            DODIG-2014-090 │ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Review of Internal Controls_____________________________________________________________________3

                  Finding. Budget-to-Report Business Process Not
                  Properly Implemented___________________________________________________________4
                  Army General Fund Statement of Budgetary Resources Not Properly Supported__________5
                  Business Process Controls Were Inadequate________________________________________________ 12
                  GFEBS Not Main Source of Army General Fund Statement of Budgetary Resources_____ 14
                  Prior-Year Funding Decision__________________________________________________________________ 15
                  Unreliable Financial Statement Data _________________________________________________________ 16
                  Management Comments on the Finding and Our Response________________________________ 18
                  Recommendations, Management Comments, and Our Response__________________________ 20

                  Appendixes
                  Appendix A. Scope and Methodology________________________________________________________ 24
                  	   Use of Computer-Processed Data _______________________________________________________ 25
                  	   Use of Technical Assistance_______________________________________________________________ 25
                  Appendix B. Prior Coverage __________________________________________________________________ 26
                  Appendix C. Value of GFEBS Data in FY 2013 Statement of Budgetary Resources_______ 28
                  Appendix D. Magnitude of Adjustments to the FY 2013 GFEBS Data______________________ 30
                  Appendix E. Army Comments on Actions Taken and Planned_____________________________ 32

                  Management Comments_____________________________________________________ 35
                  Acronyms and Abbreviations______________________________________________ 45




iv │ DODIG-2014-090
                                                                                          Introduction




Introduction
Objective
We determined whether the General Fund Enterprise Business System (GFEBS)
Program Management Office (PMO) implemented the DoD Business Enterprise
Architecture (BEA) Budget-to-Report (B2R) Business Process to properly support
the Army General Fund (AGF) Statement of Budgetary Resources (SBR). This is the
fifth report in a series of DoD Office of Inspector General (OIG) audits addressing
GFEBS and the third to address system functionality. See Appendix A for scope and
methodology and Appendix B for prior audit coverage.


Background
The Army developed GFEBS to improve the use of resources, comply with statutory
and regulatory accounting requirements, standardize financial and business processes,
and provide the capabilities to meet future needs.        GFEBS is the AGF general
ledger and, beginning in FY 2013, the system of record for AGF fund distribution.
On July 1, 2012, the Army completed GFEBS deployment to more than 53,000 users at
227 locations in 71 countries. As of April 22, 2014, the Army had spent $910 million
on the development and implementation of GFEBS.


Statement of Budgetary Resources
GFEBS is one of the Army’s enterprise resource planning system solutions for
complying with the National Defense Authorization Act (NDAA) requirements to
produce audit-ready financial statements, including the SBR.      Public Law 111-84,
“National Defense Authorization Act for Fiscal Year 2010,” October 28, 2009
(NDAA 2010), requires DoD to develop a plan to verify that the DoD financial
statements “are validated as ready for audit by not later than September 30, 2017.” In
addition, Public Law 112-81, “National Defense Authorization Act for Fiscal Year 2012,”
December 31, 2011 (NDAA 2012), section 1003 requires each military department
to develop a plan to support the Secretary of Defense goal that SBR is validated for
audit by not later than September 30, 2014. To comply with this requirement, the plan
must include process and control improvements and business systems modernization
efforts necessary for the DoD to consistently prepare timely, reliable, and complete
financial management information.

SBR describes how budgetary resources were made available as well as their status
at the end of the period. The FY 2013 AGF SBR reported Total Budgetary Resources
of $266.5 billion and Agency Outlays, Net, of $189.6 billion.     The DoD SBR audit


                                                                                      DODIG-2014-090 │ 1
Introduction



                 readiness strategy limits the scope of the first-year audit to the Schedule of Budgetary
                 Activity (SBA), a report limited to budgetary activities and transactions related to
                 the current-year funding. Once a DoD Component obtains an audit opinion on its
                 current-year activity, it will then add successive years until it has built a foundation for
                 beginning balances that can support an audit of its complete SBR.


                 Budget-to-Report Business Process
                 BEA describes the DoD business transformation priorities, the business capabilities
                 required to support those priorities, and the combinations of enterprise systems
                 and initiatives that enable those capabilities.                              BEA also guides and constrains
                 implementation of interoperable defense business system solutions such as GFEBS.
                 In addition, BEA identifies 15 DoD end-to-end business processes that are intended
                 to streamline and enable standard, integrated, and optimized business processes;
                 improve records management; and establish process governance that promotes
                 transparency, collaboration, integration, and innovation across the Army. We focused
                 this audit on the BEA B2R business process, which encompasses all business functions
                 necessary to plan, formulate, create, execute against and report on the budget and
                 business activities of the entity, including updates to the general ledger. The GFEBS
                 funds management business process area includes those functions related to budget
                 authority and fund allocation, fund maintenance and availability, fund analysis,
                 budgetary accounting, and reporting.                       The BEA B2R process is illustrated in the
                 figure below.

                 Figure. BEA B2R Business Process


                                                                       Budget
                                                                        -to-
                                                                       Report




                      Perform                    Perform                         Manage                         Manage
                                                               Distribute                         Perform
                     Executive     Perform        Budget                        Financial                       General       Perform
                                                              and Manage                          Treasury
                        Level    Programming   Planning and                    Assets and                        Ledger      Reporting
                                                                Budget                           Operations
                      Planning                 Formulation                      Liabilities                   Transactions




                 Army Budget-to-Report Roles and Responsibilities
                 Several organizations contribute to the business functions necessary to plan, formulate,
                 create, execute against and report on the budget and business activities of the Army’s
                 B2R business process.




2 │ DODIG-2014-090
                                                                                          Introduction



Office of the Assistant Secretary of the Army (Financial Management
and Comptroller) (OASA[FM&C])
OASA(FM&C) is responsible for programs and systems pertaining to Army finance and
accounting operations, including oversight of the functional and process components
for GFEBS. Its mission is to oversee the use of appropriated resources to accomplish
the Army’s assigned missions and provide timely, accurate, and reliable financial
information for decision making.     Within OASA(FM&C), the Army Budget Office
(ABO) is responsible for the Army’s budget formulation, execution, and analysis;
reprogramming actions; and appropriation fund control and distribution.


U.S. Army Program Executive Office Enterprise Information Systems
The U.S. Army Program Executive Office Enterprise Information Systems provides
infrastructure and information management systems to the Army and develops, acquires,
and deploys information technology systems. GFEBS is a program of the Program
Executive Office Enterprise Information Systems. The GFEBS PMO is responsible for the
lifecycle management of the GFEBS program and has overall responsibility for planning,
programming, budgeting, and execution of funds through the entire GFEBS lifecycle.


Defense Finance and Accounting Service
The Defense Finance and Accounting Service (DFAS) is responsible for producing a
trial balance from the Army general ledgers and preparing the financial reports for
the Army, including the AGF SBR. To create the AGF SBR, DFAS uses data from GFEBS
and legacy accounting systems and prepares journal vouchers in the Defense
Departmental Reporting System (DDRS). Preparation of journal vouchers is important
to ensure the financial statements accurately present accounting-, financial-, or other
general ledger-related events.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
May 30, 2013, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating
as intended and to evaluate the effectiveness of the controls. We identified internal
control weaknesses over the Army’s use of GFEBS in its B2R business process.
The Army did not develop and implement needed B2R functionality and processes.
We will provide a copy of the report to the senior official(s) responsible for internal
controls in the Department of the Army.




                                                                                      DODIG-2014-090 │ 3
Finding




                 Finding
                 Budget-to-Report Business Process Not
                 Properly Implemented

                 GFEBS PMO and ABO personnel did not implement the B2R business process to properly
                 support the AGF SBR. Specifically,

                               •	 GFEBS PMO personnel did not configure GFEBS to properly record at least
                                   $6.3 billion in AGF B2R transactions;

                               •	 ABO personnel did not accurately record $103.2 billion of AGF B2R
                                   transactions in GFEBS; and

                               •	 ABO personnel did not record 22 FY 2013 AGF appropriations, totaling
                                   $176.5 billion, in a timely manner.

                 This occurred because the Army’s internal controls over the B2R business process were
                 inadequate. Specifically,

                               •	 OASA(FM&C) personnel did not provide adequate oversight to verify that
                                   the GFEBS PMO configured the system to properly record B2R transactions;

                               •	 OASA(FM&C) and GFEBS PMO personnel did not create adequate procedures
                                   for some B2R business processes; and

                               •	 ABO personnel were not aware of all the transactions that they were
                                   required to record in GFEBS.

                 In addition, GFEBS, the AGF general ledger, was not the main source of data for the
                 FY 2013 AGF SBR. This occurred because of the OASA(FM&C) decision to keep most
                 prior-year funding data in legacy systems instead of converting the data into GFEBS.

                 As a result, despite spending $910 million on GFEBS development and implementation,
                 the system contains unreliable B2R data and the Army is at risk of not meeting NDAA
                 2012 SBR audit readiness requirements. The GFEBS fourth quarter FY 2013 trial
                 balance contained $6.3 billion in abnormal balances1 related to budgetary General
                 Ledger Account Codes (GLACs).2                         In addition, DFAS personnel could not use the

                 	1	
                       Abnormal balances are those in which the normal balance (debit or credit) for a general ledger account code is reversed.
                 	2	
                       General ledger accounts record, classify, and report balances in an accounting general ledger.




4 │ DODIG-2014-090
                                                                                                                                       Finding



GFEBS budgetary trial balance data to prepare the FY 2013 AGF SBR, which reported
$266.5 billion of Total Budgetary Resources, without making $141.3 billion of
adjustments to the GFEBS trial balance.                           Included in the abnormal balance and
adjustment totals above are $676.2 million of abnormal balances and $136.7 billion of
adjustments related to current-year appropriations, which present significant obstacles
that the Army must overcome to demonstrate it can produce a reliable and auditable
SBA. Until the Army corrects the issues identified with the reliability of AGF data in
GFEBS, it is at significant risk of not meeting the FY 2014 SBR audit readiness date.


Army General Fund Statement of Budgetary Resources
Not Properly Supported
GFEBS PMO and ABO personnel did not implement the B2R business process to
properly support the AGF SBR. Office of Management and Budget Circular No. A-136
Revised, “Financial Reporting Requirements,” August 3, 2012, requires SBR preparation
using primarily financial data reported from an activity’s budgetary general ledger
accounts.3 In addition, the Office of the Under Secretary of Defense (Comptroller)/
Chief Financial Officer, DoD, established the Standard Financial Information Structure
(SFIS) to achieve the financial data standardization required to comply with the
U.S. Government Standard General Ledger (USSGL). Therefore, GFEBS must contain
reliable and SFIS-compliant budgetary data to report an accurate AGF SBR.


Improper System Configuration
GFEBS PMO personnel did not configure GFEBS to properly record at least $6.3 billion
in AGF B2R transactions. Specifically, GFEBS PMO personnel configured the system so
that it improperly:

              •	 used GLAC 4119, “Other Appropriations Realized,” an account used only for
                 current-year appropriations, for $4.1 billion in prior-year funding;

              •	 recorded $2.2 billion to summary-level budgetary GLACs instead of to the
                 detail-level GLACs required by SFIS for financial reporting; and

              •	 processed at least 18 transactions, totaling $51.3 million, that did not comply
                 with the DoD SFIS Transaction Library.




	3	
      The U.S. Government Standard General Ledger separates general ledger accounts into proprietary accounts (series 1000,
      2000, 3000, 5000, 6000, and 7000), budgetary accounts (series 4000), and memorandum accounts (series 8000).	




                                                                                                                              DODIG-2014-090 │ 5
Finding



                 Incorrect system configuration contributed to GFEBS submitting inaccurate account
                 balances for the AGF SBR.


                 Inappropriate Use of Prior-Year Funding
                 GFEBS PMO personnel configured GFEBS so that it inappropriately used GLAC 4119
                 to record $4.1 billion in prior-year funding for 44 AGF appropriations. According to
                 Treasury Financial Manual Supplement No. S2 12-03, August 2012, GLAC 4119 is defined
                 as “the amount of budget authority appropriated as specified in the appropriation
                 language for all other appropriations not otherwise classified.”   All appropriations
                 are presumed to be annual appropriations unless the appropriation act expressly
                 provides otherwise. In addition, amounts from GLAC 4119 should close each year into
                 GLAC 4201, “Total Actual Resources–Collected.” Therefore, GLAC 4119 is inherently
                 for current-year appropriations only.     However, GFEBS PMO personnel configured
                 GFEBS to allow posting to GLAC 4119 for prior-year appropriations. In August 2013,
                 GFEBS PMO personnel concurred that GLAC 4119 should not allow posting of entries
                 from prior years.       The Army developed a corrective action plan which indicated
                 that the GFEBS configuration needed revision to prevent the posting of prior-year
                 funding to GLAC 4119. As of April 2014, GFEBS PMO personnel had not corrected
                 this issue. As a result of the incorrect system configuration, the GFEBS trial balance
                 overstated the balance of GLAC 4119 by $4.1 billion; however, DFAS personnel prepared
                 journal vouchers at FY 2013 yearend to correct the balance.


                 Incorrect Use of Summary-Level GLACs
                 GFEBS PMO personnel configured GFEBS so that it recorded $2.2 billion to summary-
                 level budgetary GLACs instead of to the detail-level GLACs required by SFIS for
                 financial reporting. According to the FY 2013 DoD Standard Chart of Accounts, DoD
                 Components should post transactions to detail-level GLACs instead of the summary-
                 level GLACs 4170.9000, “Transfers–Current-Year Authority,” and 4190.9000, “Transfers–
                 Prior-Year Balances.” OUSD(C)/CFO personnel stated that they could not accurately
                 report transfer data to Treasury if the transactions were not recorded in the required
                 detail-level account. GFEBS PMO personnel stated that a GFEBS ticket was created in
                 March 2013 to correct this issue. As of April 2014, GFEBS PMO personnel had not
                 corrected this issue.


                 Noncompliant B2R Transactions
                 GFEBS PMO personnel configured GFEBS so that it processed at least 18 transactions,
                 totaling $51.3 million, which did not comply with the DoD SFIS Transaction Library.




6 │ DODIG-2014-090
                                                                                             Finding



The OUSD(C)/CFO memorandum, “Department of Defense (DoD) Standard Chart of
Accounts (SCOA), Transactions, and Posting Guidance in Standard Financial Information
Structure (SFIS) Update for Fiscal Year (FY) 2010 and FY 2011,” August 23, 2010,
requires that the DoD SFIS Transaction Library be implemented by the fourth quarter
of FY 2010. Proper implementation of the DoD SFIS Transaction Library reduces
customization of DoD general ledger accounting systems, provides standard general
fund DoD enterprise transaction-level postings, and improves comparability of account
balances across DoD.     The incorrect account postings configured by GFEBS PMO
created misstatements in some budgetary and proprietary GLACs. To correct these
misstatements, DFAS personnel had to create journal vouchers when preparing the
FY 2013 AGF financial statements.


Inaccurately Recorded Appropriations and Transfers
ABO personnel did not accurately record $103.2 billion of AGF B2R transactions in
GFEBS. Specifically, they did not accurately record:

        •	 $101.4 billion of unavailable authority;

        •	 $139.1 million of rescissions; and

        •	 $1.7 billion of transfers.

The inaccurate recording of these AGF B2R transactions resulted in unreliable data
within GFEBS and contributed to the need for DFAS personnel to prepare journal
vouchers to correct the account balances.       In addition, the data were unreliable
for preparing the Standard Form 133, “Report on Budget Execution and Budgetary
Resources,” (SF 133), which management used to monitor the status of funds, and tied
an agency’s financial statements to its budget execution.


Continuing Resolution Transactions Were Inappropriately Recorded
ABO personnel inappropriately recorded Continuing Resolution (CR) transactions
when they did not record $101.4 billion of unavailable authority.       CRs are joint
resolutions, passed by the House and the Senate and signed by the President, that
provide continuing appropriations for a fiscal year.        CRs are implemented when
Congress does not pass appropriations bills for a fiscal year or when the President
vetoes congressionally passed appropriations bills.         CRs provide formulas for




                                                                                    DODIG-2014-090 │ 7
Finding



                 calculating the annualized amounts and the apportioned amounts4 available for
                 continuing programs at minimal levels.                              After a CR is implemented, the Office of
                 Management and Budget issues a bulletin to automatically apportion amounts made
                 available by the CR.

                 According to the USSGL, GLAC 4119 should be debited and GLAC 4450, “Unapportioned
                 Authority,” credited to record the annualized appropriation provided under a CR.
                 In addition, the USSGL requires GLAC 4450 be debited to record the amount of the
                 annualized appropriation not apportioned and GLAC 4395, “Authority Unavailable
                 for Obligation Pursuant to Public Law–Temporary,” should be credited.                                                    However,
                 ABO personnel only recorded the amounts apportioned by the Office of Management
                 and Budget in GLACs 4119 and 4450 and did not record the full annualized
                 appropriation as required.                    Table 1 presents a comparison of the USSGL required
                 transactions to the transactions ABO personnel recorded in GFEBS.

                 Table 1. Comparison of CR Transactions (billions)
                                                                                           USSGL           USSGL           GFEBS           GFEBS
                       GLAC                          Account Title                         Debit           Credit          Debit           Credit
                        4119         Other Appropriations Realized                           $177.9                           $76.5
                        4450         Unapportioned Authority                                                 $177.9                           $76.5
                        4450         Unapportioned Authority                                 $101.4                                —
                                     Authority Unavailable for Obligation
                        4395                                                                                 $101.4                                 —
                                     Pursuant to Public Law–Temporary


                 The incorrect recording of the transactions in GFEBS resulted in the understatement
                 of GLAC 4119 and GLAC 4395. If not corrected, these misstatements would understate
                 lines 1100, “Appropriation,” and 1134, “Appropriations precluded from obligation (-),”
                 on the SF 133 by $101.4 billion.


                 Rescission Transactions Were Improperly Recorded
                 ABO personnel did not properly record $139.1 million in rescissions for three AGF
                 appropriations. A rescission is any legislative action taken by Congress to reduce
                 budgetary resources. According to USSGL, GLAC 4450 should be debited and GLAC
                 4392, “Permanent Reduction–New Budget Authority,” should be credited to record
                 rescissions. However, the Army removed the rescinded amounts prior to recording



                 	4	
                       An apportionment is an Office of Management and Budget-approved plan to use budgetary resources that typically
                       limits the obligations that may be incurred for specified time periods, programs, activities, projects, or objects, and is
                       legally binding.




8 │ DODIG-2014-090
                                                                                                                      Finding



the appropriations in GFEBS. Table 2 presents a comparison of the USSGL required
transactions to the transactions ABO personnel recorded in GFEBS.

Table 2. Comparison of Rescission Transactions (millions)
                                                                 USSGL      USSGL      GFEBS      GFEBS
      GLAC                       Account Title                   Debit      Credit     Debit      Credit
      4119         Other Appropriations Realized                 $1,821.8              $1,682.7
      4450         Unapportioned Authority                                  $1,821.8              $1,682.7
      4450         Unapportioned Authority                        $139.1                    —
                   Permanent Reduction–New Budget
      4392                                                                   $139.1                    —
                   Authority


The incorrect recording of the transactions in GFEBS resulted in the understatement
of GLAC 4119 and GLAC 4392. If not corrected, these misstatements would understate
lines 1100, and 1130, “Appropriations permanently reduced (-),” on the SF 133 by
$139.1 million.


Transfers Were Inaccurately Recorded
ABO personnel did not accurately record $1.7 billion in Army transfers.5 Specifically,
they used incorrect GLACs for $91.5 million in transfers and did not record $1.6 billion
in current-year transfers.

ABO personnel did not accurately record 13 fund transfers, valued at $91.5 million,
when they used a different GLAC than what was indicated on the SF 1151,
“Nonexpenditure Transfer Authorization” (SF 1151).                           According to the Treasury
Financial Manual, volume 1, part 2, chapter 2000, “Warrant and Nonexpenditure
Transfer (NET) Transactions,” March 2012, the correct GLAC must be selected within
the Treasury’s Government-Wide Accounting system to avoid agency- and Government-
wide elimination discrepancies.                   The manual also requires that the Army use the
Government-wide Accounting system to process Nonexpenditure Transfer transactions,
including approvals.              The SF 1151 is used to document approved transfers and
provides the GLAC, effective date, and fund account and dollar amount for each
transfer. ABO personnel corrected 3 of the 13 transfers, valued at $41.5 million, before
yearend. However, ABO personnel did not correct two of these three transfers until
231 days after the initial recording.




	5	
      Transfers move funds from one budget account to another.




                                                                                                             DODIG-2014-090 │ 9
Finding



                 ABO personnel did not correct the remaining 10 transfers, valued at $50 million,
                 before the Army issued the FY 2013 AGF SBR.                  ABO personnel used GLAC 4175,
                 “Allocation Transfers of Current-Year Authority for Noninvested Accounts,” to
                 record 7 of the 10 transfers, although, the SF 1151 indicated they should use
                 GLAC 4176, “Allocation Transfers for Prior-Year Balances.” ABO personnel did not
                 provide a reason for the other three incorrectly recorded transfers.               Specifically,
                 ABO personnel incorrectly recorded one of the transfers in GLAC 4119 instead of
                 in GLAC 4190; one of the transfers in GLAC 4119 instead of in GLAC 4170; and
                 the other transfer in GLAC 4114, “Appropriated Receipts Derived from Available
                 Trust or Special Receipts,” instead of in GLAC 4175. The incorrect recording of the
                 transactions resulted in the overstatement of GLACs 4114 and 4119 and the
                 understatement of GLACs 4170, 4175, 4176, and 4190.                   If not corrected, these
                 misstatements would overstate lines 1100 and 1201, “Appropriation (special or trust
                 fund),” and understate lines 1121, “Appropriations transferred from other accounts,”
                 and 1011, “Unobligated balance transferred from other accounts,” on the SF 133.
                 Table 3 shows the magnitude of these misstatements.

                 Table 3. Transfer Misstatements (millions)
                      GLAC                    Account Title                     Overstatement   Understatement
                             Appropriated Receipts Derived from Available           $1.1
                      4114   Trust or Special Receipts
                      4119   Other Appropriations Realized                         $48.5
                      4170   Transfers–Current-Year Authority                                       $26.3
                             Allocation Transfers of Current-Year Authority         $0.5             $1.1
                      4175   for Noninvested Accounts
                      4176   Allocation Transfers of Prior-Year Balances                             $0.5
                      4190   Transfers–Prior-Year Balances                                          $22.2


                 In addition, ABO personnel did not record four current-year Army fund transfers,
                 valued at $1.6 billion. In March 2013, ABO personnel received transfer authority to
                 transfer $700 million from the FY 2013 Army Military Personnel appropriation to the
                 FY 2013 Army Operations and Maintenance (O&M) appropriation. ABO personnel
                 recorded the transfer of funds to the O&M appropriation but did not record the transfer
                 from the Military Personnel appropriation. In April 2013, ABO personnel received
                 an SF 1151 to transfer the funds from the O&M appropriation back to the Military
                 Personnel appropriation. However, ABO personnel did not transfer the funding out
                 of the O&M appropriation until September 2013, 62 days after we notified them of
                 the error. Because ABO personnel did not record the initial transfer out, they did




10 │ DODIG-2014-090
                                                                                              Finding



not record a transfer back to the Military Personnel appropriation. ABO personnel
also did not record two AGF transfers, valued at $204.3 million, which overstated the
GFEBS balance for the FY 2013 Army Afghanistan Security Forces Fund appropriation
by $178 million and the FY 2013 Army Cemeterial Expense appropriation by
$26.3 million.    ABO personnel did not provide a reason why they did not record
these transactions.


Appropriations Were Not Recorded Timely
ABO personnel did not record 22 FY 2013 AGF appropriations, totaling $176.5 billion,
in a timely manner.       Statement of Federal Financial Accounting Standards No. 7,
“Accounting for Revenue and Other Financing Sources and Concepts for Reconciling
Budgetary and Financial Accounting,” states that appropriations should be recognized
as capital when passed into law.      Congress passed the “Consolidated and Further
Continuing Appropriations Act, 2013,” on March 26, 2013. Table 4 shows when ABO
personnel fully recorded the FY 2013 AGF appropriations in GFEBS.

Table 4. Timeline for Recording FY 2013 AGF Appropriations (billions)
             Month                Number of Appropriations              Amount
 April                                       0                          $    0.0
 May                                         1                               5.1
 June                                        8                              76.9
 July                                        2                               8.7
 August                                      4                              12.9
 September                                   3                              70.6
 Never Fully Recorded                        4                               2.1
  Total                                     22                          $176.5*

*Difference due to rounding.

ABO personnel entered the correct amounts for 18 of the 22 appropriations before the
Army issued the FY 2013 AGF SBR. ABO personnel did not fully record the remaining
four appropriations because they either removed the rescinded amounts prior to
recording the appropriations in GFEBS, or they incorrectly recorded the appropriation
as a transfer. Therefore, the GFEBS data used to populate the quarterly and yearend
FY 2013 AGF SBRs were misstated. As a result, DFAS personnel had to create journal
vouchers to correct the data.




                                                                                    DODIG-2014-090 │ 11
Finding



                 Business Process Controls Were Inadequate
                 GFEBS PMO and ABO personnel did not implement the B2R business process to
                 properly support the AGF SBR because the Army’s internal controls over the B2R
                 business process were inadequate. The Office of Management and Budget Circular
                 A-123, “Management’s Responsibility for Internal Controls,” December 21, 2004,
                 requires agencies to operate systems with appropriate internal controls to ensure the
                 accuracy of data, completeness and consistency of transaction processing, and reliable
                 financial reporting.

                 Internal controls manage the risks associated with Federal programs and operations.
                 Internal controls also provide reasonable assurance regarding the effectiveness
                 and efficiency of operations, reliability of financial reporting, and compliance with
                 applicable laws and regulations. Until the Army implements effective internal controls
                 over the B2R business process, it will not achieve these benefits.


                 Inadequate Oversight of Budgetary Transactions
                 OASA(FM&C) personnel did not provide adequate oversight to verify that GFEBS PMO
                 configured GFEBS to properly record B2R transactions. OASA(FM&C) is required to
                 provide timely, accurate and reliable financial information to enable leaders and
                 managers to incorporate cost decisions into their decision-making.                                   Therefore,
                 OASA(FM&C) personnel were required to monitor the implementation of the GFEBS
                 B2R business process to verify the system was capable of recording all budgetary
                 transactions and fully supporting the AGF SBR.

                 DoD IG Report No. DODIG-2013-130, “Army Needs to Improve Controls and Audit
                 Trails for the General Fund Enterprise Business System Acquire-to-Retire Business
                 Process,” September 13, 2013, identified the lack of an automated transaction library
                 and recommended the Army create an automated process for demonstrating the
                 GLAC postings for each business event in GFEBS.                                OASA(FM&C) personnel stated
                 that because automated posting logic6 was not a GFEBS capability, they tested and
                 documented posting logic using alternative procedures.                                  They created a “posting
                 logic scenario file” based on extraction of GFEBS transaction data and used the file
                 to determine whether the GFEBS transactions were consistent with the DoD SFIS
                 Transaction Library.               OASA(FM&C) personnel indicated they would complete the

                 	6	
                       Posting logic describes how the system was programmed to record accounting transactions.




12 │ DODIG-2014-090
                                                                                                                                   Finding



posting logic scenarios file by December 31, 2013. However, the file provided on
December 13, 2013, approximately 16 months after full deployment of GFEBS, did not
contain 3,756 B2R related transactions from the DoD SFIS Transaction Library. For
example, the file did not document the transaction to record the annualized-, or full-
year, level of an appropriation provided under a CR or to record Fund Balance With
Treasury under a CR. A complete and accurate posting logic scenario file earlier in
the system’s development may have prevented the system misconfiguration and the
related misstatements identified in this report.                                 OASA(FM&C) personnel should
verify that the GFEBS posting logic documentation is accurate and complete, and
use it to validate GFEBS general ledger account postings. In addition, OASA(FM&C)
personnel should direct the GFEBS PMO to reconfigure GFEBS to properly record
B2R transactions, including implementing system controls to address the system
misconfiguration identified in this report.


Inadequate Procedures
ABO personnel did not accurately record AGF B2R transactions because OASA(FM&C)
and GFEBS PMO personnel did not create adequate procedures for some B2R business
processes. OASA(FM&C) and GFEBS PMO personnel provided ABO personnel with
an inaccurate job aid7 for recording the annualized appropriation provided under
a CR and authority temporarily unavailable pursuant to public law.                                             The job aid
contained transactions that were not consistent with the DoD SFIS Transaction Library.
Specifically, the job aid instructed ABO personnel to offset GLAC 4395 with GLAC 4119
instead of GLAC 4450. In addition, OASA(FM&C) and GFEBS PMO personnel did not
create procedures to post transactions to the GLACs used for prior-year transfers. For
example, during FY 2013, ABO personnel recorded some transfers using GLAC 4175
because OASA(FM&C) and GFEBS PMO personnel did not provide a job aid on the use
of GLAC 4176. GFEBS PMO personnel provided ABO with a draft job aid for using
GLAC 4176 in November 2013. However, OASA(FM&C) and GFEBS PMO personnel
did not create a job aid on the use of GLAC 4191, “Balance Transfers–Extension of
Availability Other Than Reappropriations.” OASA(FM&C) and GFEBS PMO personnel
should develop and implement job aids that address all the GLACs required for the
B2R business process and are consistent with the DoD SFIS Transaction Library.




	7	
      Job aids are procedures that provide detailed step-by-step instructions on how to enter transactions in GFEBS.




                                                                                                                         DODIG-2014-090 │ 13
Finding



                 Budget Office Was Not Aware of Responsibilities
                 ABO personnel did not accurately record AGF B2R transactions in GFEBS and did not
                 record the FY 2013 AGF appropriations in a timely manner because they were not
                 aware of all the transactions they were required to record in GFEBS. For example,
                 ABO personnel stated that in prior years, DFAS personnel recorded the GLAC 4395
                 transactions in DDRS and ABO personnel believed DFAS personnel would continue to
                 do so after the implementation of GFEBS. After the Army implemented GFEBS, ABO
                 personnel should have recorded these transactions in GFEBS because it was the AGF
                 general ledger. In addition, ABO personnel did not perform monthly reconciliations
                 between the transfer documents and GFEBS transfer transactions as required by
                 the Army’s business process for Funds Receipt and Distribution Management. This
                 reconciliation may have identified the missed transfers in time to record them in
                 GFEBS before yearend. OASA(FM&C) personnel should train ABO personnel to use
                 GFEBS to comply with B2R requirements.


                 GFEBS Not Main Source of Army General Fund
                 Statement of Budgetary Resources
                 GFEBS, the AGF general ledger, was not the main source of the data for the FY 2013
                 AGF SBR. The Army developed GFEBS to be the single source of financial and related
                 nonfinancial data and for consolidated financial reporting on the AGF. However, in
                 the FY 2013 AGF SBR, Total Budgetary Resources totaled $266.5 billion, of which only
                 $129.2 billion, or 48.5 percent, related to data originating in GFEBS. Furthermore,
                 the Unobligated Balance Brought Forward totaled $44.3 billion, of which negative
                 $59.8 billion related to data originating in GFEBS. DFAS personnel stated that the
                 negative balance in this line was the result of GFEBS not being the system of record
                 for funding before FY 2013. Therefore, DFAS personnel used the funding submitted by
                 the legacy systems and removed the prior-year funding received from GFEBS. Table 5
                 below provides the percentage of GFEBS data for select FY 2013 AGF SBR lines. See
                 Appendix C for the analysis of the complete FY 2013 AGF SBR.




14 │ DODIG-2014-090
                                                                                                                                     Finding



Table 5. Value of GFEBS Data in FY 2013 AGF SBR (millions)
                                                                                                              Percent of
                                                    SBR Line                                 Non-GFEBS
                AGF SBR Line                                           GFEBS Data                             Line from
                                                      Total                                    Data            GFEBS1
 Unobligated Balance                                $44,329             $(59,810)2            $104,139           36.5
 Brought Forward
 Total Budgetary Resources                          266,478                129,211                 137,267       48.5
 Unobligated balance, end of                          13,568              (68,534)                  82,102       45.5
 year, unapportioned
 Recoveries of prior year unpaid                    (33,763)                (4,505)                (29,258)      13.3
 obligations (-)
 Change in uncollected pymts,                          2,234                (3,092)                  5,326       36.7
 Fed sources (+ or -)
 Distributed offsetting receipts (-)                   (596)3                   (12)                 (583)        2.1
 1
     The percentages are calculated using absolute value of GFEBS data and non-GFEBS data totals.
 2
     Numbers in parentheses represent negative amounts.
 3
     Difference due to rounding.


As a result, the majority of the data to create the AGF SBR continue to come from
unreliable legacy systems and other sources.


Prior-Year Funding Decision
GFEBS was not the main source of the data for the AGF SBR because OASA(FM&C)
personnel decided to keep most prior-year funding data in legacy systems instead of
converting the data into GFEBS. OASA(FM&C) personnel stated that the Army’s data
conversion strategy was to minimize the amount of legacy transactional data converted
to GFEBS. Their goal was to preserve the integrity and auditability of GFEBS and
mitigate the risks associated with extensive and costly data cleansing and conversion
activities. Although GFEBS was fully deployed in July 2012, the Army did not execute
all current-year funding in the system. For example, ABO personnel recorded funds
distribution transactions8 for the FY 2013 Military Personnel appropriation in GFEBS,
but the Army continued to record funds execution transactions9 in legacy systems.
DFAS 7900.4-M, “Financial Management Systems Requirements Manual,” volume 1,
“General Ledger,” September 2012, stated that all transactions recording financial
events must post to the general ledger regardless of the origin of the transaction.
The Army’s lack of a single, standard, transaction-driven general ledger has been a
material weakness for AGF for more than a decade. Keeping the historical transaction
data in legacy systems will continue to impair the Army’s ability to have auditable
financial statements. OASA(FM&C) should use GFEBS to execute all AGF appropriations.

	8	
      Funds distribution transactions related to the receipt and allocation of budget authority.
	9	
      Funds execution transactions related to the use of the budget authority.


                                                                                                                           DODIG-2014-090 │ 15
Finding



                 Unreliable Financial Statement Data
                 Despite spending $910 million on GFEBS development and implementation, the system
                 contains unreliable B2R data, and the Army is at risk of not meeting NDAA 2012 SBR
                 audit readiness requirements. The abnormal balance and adjustment totals related
                 to the FY 2013 AGF SBR include $676.2 million of abnormal balances and $136.7
                 billion of adjustments related to current-year appropriations, which would be the
                 basis for the AGF SBA. If the Army does not correct the deficiencies causing unreliable
                 GFEBS B2R data for the AGF, especially as they relate to the reliability of data for
                 current-year appropriations, it is at a significant risk of not meeting the FY 2014 SBR
                 audit readiness date.


                 Budgetary Account Abnormal Balances
                 The GFEBS fourth quarter FY 2013 trial balance contained $6.3 billion in abnormal
                 balances related to budgetary GLACs. Abnormal balances are accounting irregularities
                 that indicate internal control and operational deficiencies such as incorrect posting
                 of transactions. Table 6 displays the five GLACs with the largest abnormal balances.

                 Table 6. Abnormal Balance Examples (millions)

                                                                                                      Abnormal
                        GLAC                                  Account Title                            Amount
                      4610.9000   Allotments–Realized Resources                                       $4,819.7
                      4901.0700   Delivered Orders–Obligations, Unpaid - Undistributed                  $252.8
                      4190.3103   Transfers–Prior-Year Balances Transfers Out                           $245.3
                      4251.0700   Reimbursements and Other Income Earned–Receivable - Undistributed     $241.2
                      4902.0700   Delivered Orders–Obligations, Paid - Undistributed                    $236.4


                 GFEBS PMO personnel stated they are researching the abnormal balances and their
                 root causes.      Until Army financial managers identify and correct the root causes,
                 the abnormal balances will distort the AGF financial statements because the correct
                 balances cannot be determined.


                 Budgetary Account Adjustments
                 DFAS personnel could not use the GFEBS trial balance data to prepare the FY 2013
                 AGF SBR without making significant adjustments in DDRS. Specifically, to compile
                 the FY 2013 AGF SBR, DFAS personnel prepared 342 journal vouchers, valued at
                 $141.3 billion, to the GFEBS budgetary trial balance data. See Appendix D for the
                 magnitude of adjustments to GFEBS data for each line of the FY 2013 AGF SBR.




16 │ DODIG-2014-090
                                                                                                    Finding



Because GFEBS PMO did not configure GFEBS to properly record all B2R transactions
and ABO personnel did not accurately record B2R transactions in GFEBS, the GFEBS
trial balance data provided to DDRS was unreliable. For example, DFAS personnel
created five journal vouchers to remove $101.7 million of prior-year O&M funding
from GFEBS GLAC 4119, which was for current-year funding only. In addition, DFAS
personnel created journal vouchers to:

         •	 correct invalid GLAC postings (19 journal vouchers, totaling $18.7 million);

         •	 reconcile GFEBS budgetary GLACs with budgetary status data (54 journal
           vouchers, totaling $74.3 billion);

         •	 bring the trial balances into agreement with the FY 2013 appropriation
           amounts (17 journal vouchers, totaling $35.5 billion); and

         •	 reverse funding recorded in GFEBS (12 journal vouchers, totaling
           $5.1 billion).

According to DFAS personnel, the risk of inaccurate financial statements increases
if the unreliable GFEBS trial balance data is not adjusted. In addition, it creates an
inability to reach strategic goals for auditable financial statements including the ability
to meet the FY 2014 SBR audit readiness assertion goals.


Army May Not Meet Audit Readiness Goals
If the Army does not correct the reliability of GFEBS B2R data for the AGF, it is at a
significant risk of not meeting the FY 2014 SBR audit readiness date. Obtaining an
audit opinion on the AGF SBA is the first step towards achieving auditability of
the AGF SBR. As the SBA is limited to budgetary activities and transactions related
to the current-year funding, it is imperative that the Army correct the problems
identified in this report that impact the processing of current-year appropriation data.
For example, $676.2 million of the $6.3 billion of abnormal balances was related to
current-year appropriations. In addition, $136.7 billion of the $141.3 billion in journal
vouchers prepared by DFAS personnel was related to current-year appropriations.
OASA(FM&C) should assess how implementing corrective actions based on the
recommendations in this report will impact the AGF SBA assertion timeline.




                                                                                          DODIG-2014-090 │ 17
Finding



                 Management Comments on the Finding and
                 Our Response
                 Although not required to comment, the Deputy Assistant Secretary of the Army
                 (Financial Operations) (DASA[FO]) provided the following comments on the finding.
                 For the full text of the DASA(FO)’s comments, see the Management Comments section
                 of the report.


                 Army Comments
                 DASA(FO) stated that the Army has taken initial corrective actions on the processes
                 to record AGF B2R transactions in GFEBS and plans to identify and correct additional
                 B2R processes by no later than June 30, 2014.             He added that OASA(FM&C) is
                 performing a comprehensive analysis of the GFEBS chart of accounts for FY 2014.
                 In addition, he stated that OASA(FM&C) has established processes to ensure the full
                 and timely recording of appropriations, and records appropriations when all required
                 documentation is received. He indicated that FY 2013 required documentation was
                 not provided in a timely manner because of the sequestration. Further details on
                 the Army actions taken and planned are in Appendix E.

                 DASA(FO) stated that all systems, including enterprise resource planning systems
                 such as GFEBS, have data that may need to be adjusted or reclassified over time.
                 He indicated that characterizing these data as unreliable is not a true assessment
                 of transactions that are supported and provide a clear audit trail, but may need to
                 be reclassified to another GLAC. He also stated that recent audit examinations have
                 shown that the Army has made significant improvements towards auditability and will
                 continue to make revisions to ensure full auditability.

                 DASA(FO) stated that OASA(FM&C) personnel have provided oversight, including
                 review and approval over business processes, functional design documentation, and
                 GLAC posting for each applicable business process, on the configuration of GFEBS.
                 DASA(FO) stated that OASA(FM&C) personnel and GFEBS PMO personnel have
                 provided adequate business processes to incorporate feeder system processes into an
                 enterprise resource planning architecture such as GFEBS. He indicated that given the
                 breadth and complexity of the system, it is reasonable to state that some processes and
                 posting logic will need to be revised to comply with the most current and continually
                 developing guidance. He also indicated that the SFIS guidance cites that the library is
                 not an all-inclusive listing of transactions, and that the mere absence of a transaction
                 from the library does not constitute noncompliance. In addition, DASA(FO) stated




18 │ DODIG-2014-090
                                                                                                                                    Finding



that GFEBS was also not the main source of data for prior AGF financial statements.
He indicated that the Army adopted this strategy to avoid converting legacy financial
data, a process the DoD OIG has noted as being unreliable in the past. He also stated
that the brown-out strategy was developed through lessons learned from other
major DoD transformation efforts and coordinated extensively with the Offices of
the Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD, and the
Deputy Chief Management Officer.


Our Response
We commend the Army for the actions it has taken and the future corrective actions
it has planned. However, the problems discussed in this report, such as inaccurately
recording transactions and posting transactions to the incorrect account, need to
be corrected in order to improve the reliability of the budgetary data in GFEBS.
Posting transactions to the incorrect GLAC makes the data inaccurate, and therefore
unreliable.10 In addition, the $6.3 billion in abnormal balances are another indication
that GFEBS data are unreliable. Until Army financial managers identify and correct the
root cause for the abnormal balances, the abnormal balances will continue to distort
the AGF financial statements because the correct balances cannot be determined.

We acknowledge that Office of the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD, guidance cites that the DoD transaction library is not an
all-inclusive listing of transactions, and that a mere absence of a transaction from
the library does not constitute noncompliance.                               However, before developing and
implementing GFEBS, the OASA(FM&C) should have identified necessary accounting
transactions that were Generally Accepted Accounting Principles-compliant but were
not captured in the DoD transaction library. These transactions should have been
documented and the Army should have coordinated with Office of the Under Secretary
of Defense (Comptroller)/Chief Financial Officer, DoD, to obtain approval before
programming the transactions into GFEBS.

GFEBS is the AGF general ledger and system of record for funds distribution. By
distributing funds in one system and executing funds in another, the Army has
created unnecessary complications. In addition, the Army’s lack of a single, standard,
transaction-driven general ledger has been a material weakness for AGF for more than
a decade. Therefore, all AGF appropriations should be executed in GFEBS to improve
the Army’s ability to have auditable financial statements by FY 2017.


	10	
       Government Accountability Office Report No. GAO-03-273G, “Assessing the Reliability of Computer-Processed Data,”
       October 2002, states that reliable data are complete and accurate.




                                                                                                                          DODIG-2014-090 │ 19
Finding



                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 1
                 We recommend that the Assistant Secretary of the Army (Financial Management
                 and Comptroller):

                         a.	 Verify that the General Fund Enterprise Business System posting logic
                            documentation is accurate and complete, and use it to validate General
                            Fund Enterprise Business System general ledger account postings.

                 Army Comments
                 The DASA(FO), responding for the Assistant Secretary of the Army (Financial
                 Management and Comptroller) (ASA[FM&C]), agreed, stating that the Army has initiated
                 an effort to document and validate the GFEBS posting logic general ledger mapping
                 in phases. The first phase will tie transactions that affect the FY 2015 SBA assertion,
                 followed by the transactions affecting the FY 2017 assertion. He indicated that the
                 Army is also undertaking a larger effort to identify, document, and monitor system
                 derived posting logic to include current and prior fiscal years. For the B2R process, the
                 Army plans to develop a plan of action and milestone by July 31, 2014, to outline the
                 actions required to document and potentially adjust applicable posting logic.


                 Our Response
                 The DASA(FO) comments addressed all specifics of the recommendation, and no further
                 comments are required.

                         b.	 Direct the General Fund Enterprise Business System Program
                            Management Office to reconfigure the General Fund Enterprise
                            Business System to properly record Budget-to-Report transactions,
                            including implementing system controls to address items identified
                            in this report.

                 Army Comments
                 The DASA(FO), responding for the ASA(FM&C), agreed, stating that as individual
                 changes are identified and approved through the GFEBS configuration management
                 process, they will be scheduled and implemented by GFEBS PMO personnel in FY 2015.




20 │ DODIG-2014-090
                                                                                              Finding



Our Response
The DASA(FO) comments addressed all specifics of the recommendation, and no further
comments are required.

         c.	 Provide the Army Budget Office personnel with training on performing
           their Budget-to-Report responsibilities using the General Fund
           Enterprise Business System.

Army Comments
The DASA(FO), responding for the ASA(FM&C), agreed, stating that OASA(FM&C)
personnel will work with GFEBS PMO personnel to review end-to-end processes,
existing training materials, and job aids beginning no later than June 30, 2014.
Updates to training materials and job aids will be implemented and communicated to
the stakeholders.


Our Response
The DASA(FO) comments addressed all specifics of the recommendation, and no further
comments are required.

         d.	Use the General Fund Enterprise Business System to execute all Army
           General Fund appropriations.

Army Comments
The DASA(FO), responding for the ASA(FM&C), agreed, stating that it is the Army’s
intent to maximize General Fund execution within GFEBS where possible. The Army
strategy, as endorsed by the Office of the Secretary of Defense, has been to migrate
from using legacy financial and feeder systems to using the Army enterprise resource
planning systems. After full migration to the target-state systems’ environment, the
Army will concentrate its execution in a few key General Fund financial systems with
GFEBS at its core.    In addition, he indicated the Army will explore the long-term
benefits of performing General Fund General Ledger consolidation before submission
to DDRS with the objective to consolidate all trial balance reporting in GFEBS
Business Intelligence prior to submission to DDRS. He also expressed concern over the
Army-wide single system approach, stating that this has proven to be very expensive
and ineffective in the past.     He indicated that the brown-out of legacy financial
systems has had its costs and challenges, but this approach was determined to be far
more preferable than having to cleanse and convert data that the DoD IG itself has
criticized as being highly suspect.




                                                                                    DODIG-2014-090 │ 21
Finding



                 Our Response
                 The DASA(FO) comments did not address the specifics of the recommendation. The
                 Office of Federal Financial Management, “Core Financial System Requirements,”
                 January 2006, stated that all transactions recording financial events must post to the
                 general ledger regardless of the origin of the transaction. In order for GFEBS to fulfill
                 this requirement, AGF financial information must be consolidated into a single general
                 ledger. We request the ASA(FM&C) provide further comments by August 4, 2014, to
                 explain how and when GFEBS will be used to execute all AGF appropriations.

                          e.	 Assess   how   implementing      corrective    actions   based     on   the
                              recommendations in this report will impact the Army General Fund
                              Schedule of Budgetary Activity assertion timeline.

                 Army Comments
                 The DASA(FO), responding for the ASA(FM&C), disagreed, stating that the Army is on
                 track to assert as scheduled. He added that OASA(FM&C) personnel are reviewing the
                 findings in this audit report and making progress to address the issues noted. He also
                 stated that ASA(FM&C) and stakeholders regularly monitor and brief management
                 on the status of corrective actions to ensure milestones are met and robust interim
                 compensating controls are in place.


                 Our Response
                 The DASA(FO) comments did not address the specifics of the recommendation. He
                 stated that the Army is on track to assert on the SBA as scheduled, but did not provide
                 an assessment as to why recommendations with no date for corrective actions to be
                 completed (Recommendation 1.d) or with anticipated corrective actions after the
                 FY 2014 SBR audit readiness date (Recommendation 1.b) would not impact the
                 assertion.   We request the ASA(FM&C) provide comments to the final report by
                 August 4, 2014, indicating how the issues identified in this report will be materially
                 resolved in time for the SBA audit.




22 │ DODIG-2014-090
                                                                                              Finding



Recommendation 2
We recommend that Assistant Secretary of the Army (Financial Management
and Comptroller) and the General Fund Enterprise Business System Program
Management Office develop and implement job aids that address all the
general ledger account codes required for the Budget-to-Report business process
and are consistent with the DoD Standard Financial Information Structure
Transaction Library.


Army Comments
The DASA(FO), responding for the ASA(FM&C) and GFEBS PMO, agreed, stating that
ASA(FM&C) will work with GFEBS PMO personnel to review existing training material
and jobs aids beginning with a meeting no later than June 30, 2014. Any required
revisions will be verified to ensure compliance with the DoD SFIS Transaction Library
and the Treasury Financial Manual, and communicated to stakeholders.


Our Response
The DASA(FO) comments addressed all specifics of the recommendation, and no further
comments are required.




                                                                                    DODIG-2014-090 │ 23
Appendixes




                 Appendix A
                 Scope and Methodology
                 We conducted this performance audit from May 2013 through April 2014 in
                 accordance with generally accepted government auditing standards. Those standards
                 require that we plan and perform the audit to obtain sufficient, appropriate evidence
                 to provide a reasonable basis for our findings and conclusions based on our audit
                 objective. We believe that the evidence obtained provides a reasonable basis for our
                 findings and conclusions based on our audit objective.

                 We contacted personnel from the OUSD(C)/CFO; DCMO; Army Office of Business
                 Transformation; OASA(FM&C); ABO; Program Executive Office Enterprise Information
                 Systems; GFEBS PMO; and DFAS to discuss their roles and responsibilities regarding
                 the B2R business process. The B2R business process includes eight phases; however,
                 we only reviewed the three B2R process phases unique to the budgetary processes
                 within GFEBS: Distribute and Manage Budget, Manage General Ledger Transactions,
                 and Perform Reporting.

                 We obtained and reviewed B2R process documentation such as appropriation
                 warrants, apportionment and reapportionment schedules, and nonexpenditure
                 transfer authorities. We also reviewed transactions in GFEBS, including appropriation,
                 transfer, and reprogramming transactions to determine if the GFEBS PMO adequately
                 implemented required transactions and posting logic and to evaluate the timeliness
                 of transactions. In addition, we obtained and reviewed procedures for GFEBS B2R
                 business processes to determine if they were adequate and if the Army followed
                 the procedures.

                 We determined whether GFEBS contained all of the DoD accounts and posting logic
                 required for FY 2013 AGF reporting. In addition, we compared GFEBS posting logic
                 documentation to the DoD SFIS Transaction Library to determine if the GFEBS PMO
                 configured the correct transaction codes to support the AGF SBR.

                 We reviewed GFEBS trial balance and the GFEBS data within DDRS to determine
                 whether GFEBS was the main source of data for the FY 2013 AGF SBR. We also
                 reviewed the GFEBS budgetary data in the fourth quarter FY 2013 AGF Trial Balance to
                 determine if abnormal balances existed in the general ledger accounts associated
                 with the GFEBS B2R business process. In addition, we reviewed adjustments to the
                 GFEBS data used to prepare the FY 2013 AGF SBR.




24 │ DODIG-2014-090
                                                                                         Appendixes



Use of Computer-Processed Data
To perform this audit, we used data obtained from GFEBS and DDRS. We determined
data reliability by comparing selected GFEBS B2R transactions to the supporting
documentation. We also reviewed the FY 2013 AGF and GFEBS Trial Balances for
abnormal balances related to budgetary GLACs. We reviewed 342 journal vouchers
recorded in DDRS for fourth quarter FY 2013 to determine whether the vouchers
corrected GFEBS B2R transaction posting errors.         We compared data from the
FY 2013 GFEBS trial balance and found significant variances between the trial balance
data and the GFEBS amounts reported in the FY 2013 AGF SBR. The data reliability
issues we identified are discussed in the finding. The computer-processed data we
used were sufficiently reliable for reaching the audit conclusions and supporting the
finding in this report.


Use of Technical Assistance
We did not use technical assistance in conducting this audit.




                                                                                    DODIG-2014-090 │ 25
Appendixes




                 Appendix B
                 Prior Coverage
                 During the last 5 years, the Government Accountability Office (GAO), the DoD
                 OIG, and U.S. Army Audit Agency (AAA) have issued 16 reports related to GFEBS
                 or the B2R business process. Unrestricted GAO reports can be accessed over the
                 Internet at http://www.gao.gov.   Unrestricted DoD IG reports can be accessed at
                 http://www.dodig.mil/pubs/index.cfm?office=Audit. Unrestricted Army reports can be
                 accessed from .mil and gao.gov domains over the Internet at https://www.aaa.army.mil.


                 GAO
                 GAO Report No. GAO-13-557, “DoD Business Systems Modernization: Further Actions
                 Needed to Address Challenges and Improve Accountability,” May 17, 2013

                 GAO Report No. GAO-12-685, “DoD Business Systems Modernization: Governance
                 Mechanisms for Implementing Management Controls Need to Be Improved,”
                 June 1, 2012

                 GAO Report No. GAO-12-134, “DoD Financial Management: Implementation Weaknesses
                 in Army and Air Force Business Systems Could Jeopardize DoD’s Auditability Goals,”
                 February 28, 2012

                 GAO Report No. GAO-11-53, “DoD Business Transformation: Improved Management
                 Oversight of Business System Modernization Efforts Needed,” October 7, 2010


                 DoD IG
                 DoD IG Report No. DODIG-2013-130, “Army Needs to Improve Controls and Audit
                 Trails for the General Fund Enterprise Business System Acquire-to-Retire Business
                 Process,” September 13, 2013

                 DoD IG Report No. DODIG-2013-111, “Status of Enterprise Resource Planning Systems’
                 Cost, Schedule, and Management Actions Taken to Address Prior Recommendations,”
                 August 1, 2013

                 DoD IG Report No. DODIG-2012-111, “Enterprise Resource Planning Systems Schedule
                 Delays and Reengineering Weaknesses Increase Risks to DoD’s Auditability Goals,”
                 July 13, 2012




26 │ DODIG-2014-090
                                                                                          Appendixes



DoD IG Report No. DODIG-2012-066, “General Fund Enterprise Business System Did
Not Provide Required Financial Information,” March 26, 2012

DoD IG Report No. D-2011-072, “Previously Identified Deficiencies Not Corrected in
the General Fund Enterprise Business System Program,” June 15, 2011


Army
AAA Attestation Report A-2013-0039-FMR, “General Fund Enterprise Business System-
Vendor Pay Processing Issues,” January 22, 2013

AAA Attestation Report A-2013-0017-FMR, “General Fund Enterprise Business System-
Vendor Pay,” November 19, 2012

AAA Attestation Report A-2012-0153-FMR, “Examination of the General Fund Enterprise
Business System - Federal Financial Management Improvement Act Compliance.
Examination of Requirements Through Test Event 1.4.4,” August 7, 2012

AAA Attestation Report A-2010-0187-FFM, “General Fund Enterprise Business
System - Federal Financial Management Improvement Act Compliance. Examination of
Requirements Through Test Event 1.4.0,” September 14, 2010

AAA    Audit   Report   A-2009-0232-FFM,      “General   Fund    Enterprise   Business
System - Federal Financial Management Improvement Act Compliance. Examination of
Releases 1.4.1, 1.4.2, 1.4.3, and 1.4.4 Requirements,” September 30, 2009

AAA    Audit   Report   A-2009-0231-FFM,      “General   Fund    Enterprise   Business
System - Federal Financial Management Improvement Act Compliance. Examination of
Release 1.3 Functionality,” September 30, 2009

AAA Attestation Report A-2009-0226-FFM, “Examination of Federal Financial
Management Improvement Act Compliance - Test Validation. General Fund Enterprise
Business System Release 1.2,” September 30, 2009




                                                                                     DODIG-2014-090 │ 27
Appendixes




                 Appendix C
                 Value of GFEBS Data in FY 2013 Statement of
                 Budgetary Resources
                                                                         SBR Line      GFEBS        Other       Percent
                                            SBR Line                     Amount       Amount       Amount      of GFEBS
                                                                        (millions)   (millions)   (millions)     Data
                      Budgetary Resources:
                      Unobligated balance brought forward,                $44,329    $(59,810)     $104,139        36.5
                      October 1
                      	   Unobligated balance brought forward,             44,329     (59,810)      104,139        36.5
                          October 1, as adjusted,
                      Recoveries of prior year unpaid obligations          33,763        4,505       29,258        13.3
                      Other changes in unobligated balance (+ or -)        (3,983)         206       (4,188)        4.7
                      Unobligated balance from prior year budget           74,110     (55,099)      129,209        29.9
                      authority, net
                      Appropriations (discretionary and                   172,739      173,823       (1,084)       99.4
                      mandatory)
                      Spending Authority from offsetting                   19,630       10,487         9,142       53.4
                      collections (discretionary and mandatory)
                      Total Budgetary Resources                           266,478      129,211      137,267        48.5
                      Status of Budgetary Resources:
                      Obligations Incurred                                227,841      108,781      119,059        47.7
                      Unobligated balance, end of year
                      	   Apportioned                                      24,855       88,754      (63,900)       58.1
                      	   Exempt from Apportionment                           215          209             6       97.2
                      	   Unapportioned                                    13,568     (68,534)       82,102        45.5
                      Total Unobligated Balance, End of Year               38,637       20,430       18,208        52.9
                      Total Budgetary Resources                           266,478      129,211      137,267        48.5
                      Change in Obligated Balance:
                      	   Unpaid obligations:
                      Unpaid obligations, brought forward,                138,730       30,420      108,310        21.9
                      October 1
                      Obligations incurred                                227,841      108,781      119,059        47.7
                      Outlays (gross) (-)                               (212,097)     (77,105)    (134,992)        36.4
                      Recoveries of prior year unpaid obligations (-)    (33,763)       (4,505)     (29,258)       13.3
                      Unpaid Obligations, end of year                     120,711       57,591       63,119        47.7
                      Uncollected payments:




28 │ DODIG-2014-090
                                                                                                      Appendixes



                                                SBR Line      GFEBS        Other       Percent
                   SBR Line                     Amount       Amount       Amount      of GFEBS
                                               (millions)   (millions)   (millions)     Data
Uncollected payments from Federal sources,      (29,376)       (4,210)     (25,166)       14.3
brought forward, October 1 (-)
Change in uncollected payments from                2,234       (3,092)        5,326       36.7
Federal Sources (+ or -)
Uncollected payments from Federal sources,      (27,143)       (7,302)     (19,840)       26.9
end of year (-)
Obligated Balance, Start of Year (+ or -)        109,353       26,210       83,143        24.0
Obligated Balance, End of Year (+ or -)           93,568       50,289       43,279        53.8
Budget Authority and Outlays, Net:
Budget authority, gross                          192,368      184,310         8,058       95.8
(discretionary and mandatory)
Actual offsetting collections                   (21,868)       (7,400)     (14,468)       33.8
(discretionary and mandatory) (-)
Change in uncollected customer payments
from Federal Sources                               2,234       (3,092)        5,326       36.7
(discretionary and mandatory) (+ or -)
Budget Authority, net (discretionary             172,734      173,818       (1,084)       99.4
and mandatory)
Outlays, gross (discretionary and mandatory)     212,097       77,105      134,992        36.4
Actual offsetting collections                   (21,868)       (7,400)     (14,468)       33.8
(discretionary and mandatory) (-)
Outlays, net (discretionary and mandatory)       190,229       69,706      120,523        36.6
Distributed offsetting receipts (-)                 (596)         (12)        (583)        2.1
Agency Outlays, net                              189,633       69,693      119,940        36.8
(discretionary and mandatory)




                                                                                                 DODIG-2014-090 │ 29
Appendixes




                 Appendix D
                 Magnitude of Adjustments to the FY 2013 GFEBS Data
                                                                                    GFEBS        GFEBS
                                                                                     Trial                  Percent
                                                SBR Line                                        in DDRS
                                                                                   Balance                  Change
                                                                                               (millions)
                                                                                  (millions)
                      Budgetary Resources:
                      Unobligated balance brought forward, October 1                 $7,003    $(59,810)     (954.1)
                      	   Unobligated balance brought forward, October 1, as          7,003     (59,810)     (954.1)
                          adjusted,
                      Recoveries of prior year unpaid obligations                     4,508        4,505        (0.1)
                      Other changes in unobligated balance (+ or -)                     456          206       (54.9)
                      Unobligated balance from prior year budget authority, net      11,967     (55,099)     (560.4)
                      Appropriations (discretionary and mandatory)                  179,295      173,823        (3.1)
                      Spending Authority from offsetting collections                 10,499       10,487        (0.1)
                      (discretionary and mandatory)
                      Total Budgetary Resources                                     201,761      129,211       (36.0)
                      Status of Budgetary Resources:
                      Obligations Incurred                                          106,067      108,781         2.6
                      Unobligated balance, end of year
                      	   Apportioned                                                88,604       88,754         0.2
                      	   Exempt from Apportionment                                      14          209     1,393.1
                      	   Unapportioned                                               7,075     (68,534)    (1,068.7)
                      Total Unobligated Balance, End of Year                         95,693       20,430       (78.7)
                      Total Budgetary Resources                                     201,760      129,211       (36.0)
                      Change in Obligated Balance:
                      	   Unpaid obligations:
                      Unpaid obligations, brought forward, October 1                 30,435       30,420        (0.1)
                      Obligations incurred                                          106,067      108,781         2.6
                      Outlays (gross) (-)                                          (74,142)     (77,105)         4.0
                      Recoveries of prior year unpaid obligations (-)                (4,508)      (4,505)       (0.1)
                      Unpaid Obligations, end of year                                57,851       57,591        (0.5)
                      	   Uncollected payments:
                      Uncollected payments from Federal sources, brought             (4,319)      (4,210)       (2.5)
                      forward, October 1 (-)
                      Change in uncollected payments from Federal                    (3,092)      (3,092)        0.0
                      Sources (+ or -)




30 │ DODIG-2014-090
                                                                                                        Appendixes



                                                               GFEBS        GFEBS
                                                                Trial                  Percent
                           SBR Line                                        in DDRS
                                                              Balance                  Change
                                                                          (millions)
                                                             (millions)
Uncollected payments from Federal sources, end of year (-)      (7,410)      (7,302)       (1.5)
Obligated Balance, Start of Year (+ or -)                       26,116       26,210         0.4
Obligated Balance, End of Year (+ or -)                         50,441       50,289        (0.3)
Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)          189,793      184,310        (2.9)
Actual offsetting collections                                   (7,407)      (7,400)       (0.1)
(discretionary and mandatory) (-)
Change in uncollected customer payments from Federal            (3,092)      (3,092)        0.0
Sources (discretionary and mandatory) (+ or -)
Budget Authority, net (discretionary and mandatory)            174,902      173,818        (0.6)
Outlays, gross (discretionary and mandatory)                    74,142       77,105         4.0
Actual offsetting collections                                   (7,110)      (7,400)        4.1
(discretionary and mandatory) (-)
Outlays, net (discretionary and mandatory)                      67,032       69,706        (4.0)
Distributed offsetting receipts (-)                                571          (12)    (102.2)
Agency Outlays, net (discretionary and mandatory)               67,603       69,693         3.1




                                                                                                   DODIG-2014-090 │ 31
Appendixes




                 Appendix E
                 Army Comments on Actions Taken and Planned
                 The DASA(FO) comments below discuss actions the Army has taken and plans to take
                 to address the deficiencies identified in this report.


                 Management Comments on Improper System Configuration
                 DASA(FO) stated that GFEBS PMO personnel will reclassify the $6.3 billion in incorrect
                 funding postings to the proper USSGL approved accounts before the close of FY 2014.
                 He also indicated that the GFEBS PMO plans to incorporate the USSGL transaction
                 library postings, which relate to the specific finding, in the appropriate funding process.


                 Management Comments on Inappropriate Use of
                 Prior-Year Funding
                 DASA(FO) stated that OASA(FM&C) personnel, in coordination with GFEBS PMO
                 personnel, will verify and revise the posting logic configuration within GFEBS by
                 the first quarter of FY 2015. He added that any correcting entries will be revised
                 and communicated quarterly to DFAS Departmental Reporting to appropriately state
                 balances for financial reporting. He also indicated that OASA(FM&C) personnel are
                 in the process of recommending updates to the applicable job aids.


                 Management Comments on Incorrect Use of Summary
                 Level GLACS
                 DASA(FO) stated that OASA(FM&C) personnel are performing a comprehensive
                 analysis of the GFEBS chart of accounts relative to guidance published by the Office
                 of the Deputy Chief Management Officer. He indicated that, based on this analysis,
                 OASA(FM&C) personnel will determine accounts to be added, re-linked, blocked
                 from posting, and accounts to be posted at the detail level by FY 2014 yearend. He
                 also stated that OASA(FM&C) personnel will coordinate with GFEBS PMO personnel to
                 ensure the deficiencies referenced in this report are remediated and the GFEBS chart
                 of accounts is updated.


                 Management Comments on Noncompliant B2R Transactions
                 DASA(FO) stated that OASA(FM&C) personnel are collaborating closely with GFEBS
                 PMO personnel to complete a comprehensive analysis of the GFEBS transactions
                 posting logic and associated business rules. He indicated that the analysis will identify




32 │ DODIG-2014-090
                                                                                         Appendixes



B2R transactions that are currently not listed in the DoD transaction library or the
treasury guidance. He also stated that OASA(FM&C) personnel would develop an annual
review at the end of the analysis for FY 2015.


Management Comments on Inaccurately Recorded
Appropriations and Transfers
DASA(FO) stated that the Army has taken initial corrective action on the processes to
record AGF B2R transactions within GFEBS. He indicated that additional corrective
actions on related B2R processes will be identified by OASA(FM&C) personnel and the
GFEBS PMO personnel by no later than June 30, 2014.


Management Comments on Inadequate Business
Process Controls
DASA(FO) stated that OASA(FM&C) personnel will continue to identify key risks for the
B2R business processes and ensure that key controls are designed and implemented
as needed.


Management Comments on Inadequate Oversight of
Budgetary Transactions
DASA(FO) stated that OASA(FM&C) personnel are developing a policy memorandum
directing the Program Executive Office Enterprise Information Systems to document
business processes, associated business rules and posting logic for all transactions
processed in the Army’s enterprise resource planning systems, including GFEBS. He
indicated that the policy will be supported by an implementation guide to document
business rules and posting logic in an SAP* enterprise resource planning environment
by the second quarter of FY 2015.


Management Comments on Prior-Year Funding Decision and
Budgetary Account Adjustments
DASA(FO) stated that the Army is monitoring the GFEBS trial balance at multiple
levels and collaborating with GFEBS PMO personnel and DFAS personnel to ensure the
accuracy and completeness of GFEBS data. He indicated that DDRS is configured to
balance at a different level than GFEBS and the Army is working with all stakeholders
to determine the best way forward to minimize and eliminate these adjustments.

	*	
      SAP is a company that develops ERP systems.




                                                                                    DODIG-2014-090 │ 33
Appendixes



                 Management Comments on Budgetary Account
                 Abnormal Balances
                 DASA(FO) stated that OASA(FM&C) personnel are reviewing the entries that impacted
                 FY 2013 abnormal balances to determine if the abnormal balances still exist in
                 FY 2014. He indicated that if an abnormal balance exists or a new abnormal balance
                 similar in nature exists in FY 2014, OASA(FM&C) personnel will work with GFEBS
                 PMO personnel and DFAS personnel to identify the root cause of the abnormal balance
                 and implement corrective entries before yearend.


                 Management Comments on Army May Not Meet the Audit
                 Readiness Goals
                 DASA(FO) stated that the Army has made significant progress in the reliability,
                 accuracy, and completeness of the GFEBS B2R data. He indicated that OASA(FM&C)
                 personnel and GFEBS PMO personnel will develop corrective action plans and make
                 adjustments as necessary to mitigate risks to the AGF audit readiness. He also stated
                 that the impacts to audit readiness efforts are actively tracked by Army management
                 to minimize or eliminate impacts on the AGF SBA assertion.




34 │ DODIG-2014-090
                         Management Comments




Management Comments
Department of the Army




                               DODIG-2014-090 │ 35
Management Comments



                 Department of the Army (cont’d)




36 │ DODIG-2014-090
                                  Management Comments



Department of the Army (cont’d)




                                        DODIG-2014-090 │ 37
Management Comments



                 Department of the Army (cont’d)




38 │ DODIG-2014-090
                                  Management Comments



Department of the Army (cont’d)




                                        DODIG-2014-090 │ 39
Management Comments



                 Department of the Army (cont’d)




40 │ DODIG-2014-090
                                  Management Comments



Department of the Army (cont’d)




                                        DODIG-2014-090 │ 41
Management Comments



                 Department of the Army (cont’d)




42 │ DODIG-2014-090
                                  Management Comments



Department of the Army (cont’d)




                                        DODIG-2014-090 │ 43
Management Comments



                 Department of the Army (cont’d)




44 │ DODIG-2014-090
                                                                             Acronyms and Abbreviations




Acronyms and Abbreviations
         ABO Army Budget Office
         AGF Army General Fund
  ASA(FM&C) Assistant Secretary of the Army (Financial Management and Comptroller)
         B2R Budget-to-Report
         BEA Business Enterprise Architecture
           CR Continuing Resolution
    DASA(FO) Deputy Assistant Secretary of the Army (Financial Operations)
        DDRS Defense Departmental Reporting System
        DFAS Defense Finance and Accounting Service
       GFEBS General Fund Enterprise Business System
        GLAC General Ledger Account Code
       NDAA National Defense Authorization Act
        O&M Operations and Maintenance
 OASA(FM&C) Office of the Assistant Secretary of the Army (Financial Management
            and Comptroller)
        PMO Program Management Office
         SBA Schedule of Budgetary Activity
         SBR Statement of Budgetary Resources
         SFIS Standard Financial Information Structure
       USSGL U.S. Government Standard General Ledger




                                                                                        DODIG-2014-090 │ 45
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
